    April 1, 2005




Financial Management
Contracts Classified as
Unreconcilable by the Defense
Finance and Accounting Service
Columbus (Contract DAAA09-81-G-
2008/0031)
(D-2005-047)




                 Department of Defense
             Office of the Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
ACO                   Administrative Contracting Officer
DCMA                  Defense Contract Management Agency
DFAS                  Defense Finance and Accounting Service
MSA                   Mine Safety Appliances Company
MOCAS                 Mechanization of Contract Administration Services
NULO                  Negative Unliquidated Obligation
PCO                   Procurement Contracting Officer
RAID                  Request and Inspection of Documents
TACOM                 Tank Automotive and Armaments Command
                Department of Defense Office of Inspector General
Report No. D-2005-047                                                          April 1, 2005
   (Project No. D2004FJ-0207)


      Contracts Classified as Unreconcilable by the Defense Finance
                   and Accounting Service Columbus
                (Contract No. DAAA09-81-G2008/0031)

                                 Executive Summary

Who Should Read This Report and Why? Defense personnel in the areas of
acquisition, and finance and accounting, who are responsible for maintaining and closing
out contracts, should read this report. It discusses contracts classified as “out of balance”
and “unreconcilable” because of lost documentation.

Background. Army contract DAAA09-81-G2008/0031 was awarded in 1983 to procure
chemical and biological masks. Defense Contract Management Agency personnel stated
that work was completed on the contract in 1987. However, the Defense Finance and
Accounting Service (DFAS) Columbus was unable to close Army contract DAAA09-81-
G2008/0031 in its Mechanization of Contract Administration Services (MOCAS)
database because the MOCAS records showed an over disbursed balance of $103,595,
and 40 documents needed to reconcile that amount were missing.

In July 2003, DFAS Columbus used new procedures to make another effort to locate the
missing documents. Despite an extensive search, the 40 missing documents were not
located. This prevented a full reconciliation of the contract. The missing documentation
included modifications, payment documents, and shipping documents. DFAS Columbus
concluded that the contract was unreconcilable.

Results. We evaluated whether the DFAS actions were adequate to support their
assessment that the contract was unreconcilable. During the audit, we located four
missing modification documents and two payment documents. However, the additional
documentation was not sufficient to allow DFAS Columbus to perform a full
reconciliation. Therefore, we concur with the DFAS Columbus assessment that Army
contract DAAA09-81-G-2008/0031 was unreconcilable. DFAS Columbus needed to
perform an obligation review using all available documentation and determine the exact
amount of the out of balance condition. If it is below $100,000, DFAS Columbus is
permitted by law to forward a request to the Director, Defense Finance and Accounting
Service to prepare internal adjustments to close out the contract. If the obligation
reconciliation shows that the out of balance condition is above $100,000, DFAS
Columbus will need to maintain the contract in the MOCAS system pending a change in
legislation to increase the threshold.
Management Comments. The Deputy Director of Commercial Pay Services at the
Defense Finance and Accounting Service Columbus concurred with the
recommendations and completed actions that have resulted in the closure of this contract.
Therefore, no further comments are required. See the Finding section of the report for a
discussion of management comments and the Management Comments section of the
report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                              i

Background                                    1

Objectives                                    2

Finding
     Contract No. DAAA09-81-G-2008/0031       3

Appendixes
     A. Scope and Methodology                 7
         Management Control Program Review    7
         Prior Coverage                       7
     B. Report Distribution                   8

Management Comments
     Defense Finance and Accounting Service   11
Background
    Army contract DAAA09-81-G-2008/0031 was awarded to the Mine Safety
    Appliances Company (MSA) on May 5, 1983, to provide 542,873 chemical and
    biological masks to the Army. The procurement contracting office was located at
    the Tank Automotive and Armaments Command (TACOM) in Rock Island,
    Illinois. The Army made 101 modifications to the contract during its life and
    obligated a total of $123.8 million. Defense Contract Management Agency
    (DCMA), Pittsburgh, Pennsylvania, personnel stated that the former Defense
    Contract Administration Services Region Philadelphia initially paid the contract
    until the payment function was transferred to the Defense Finance and
    Accounting Service (DFAS) Columbus in 1992. The DCMA office in Pittsburgh,
    administered the contract. The contract was physically completed in 1987.

    At the time of the audit, the contract had a negative unliquidated obligation
    (NULO) balance of $103,595 in the Mechanization of Contract Administration
    Services (MOCAS) system. Because a NULO existed in MOCAS, the contract
    could not be closed until a full reconciliation was performed.

    DFAS Columbus’ previous attempts to reconcile Army contract DAAA09-81-G-
    2008/0031 were unsuccessful. Communications between personnel at DCMA,
    Pittsburgh, and DFAS Columbus showed that Coopers and Lybrand, an
    accounting firm, attempted to perform a full reconciliation in 1994, and DFAS
    Columbus personnel attempted a full reconciliation in 1997. However, neither
    reconciliation could be completed due to missing documentation.

    In another attempt to perform a full reconciliation, DFAS Columbus initiated a
    “Request and Inspection of Documents” (RAID) in July 2003. However, the
    personnel assigned to the RAID could not locate the necessary documents
    required to perform a full reconciliation. In total, 40 documents were missing.

    DFAS Columbus initiated efforts to contact the Administrative Contracting
    Officer (ACO), the Procurement Contracting Officer (PCO), and the DFAS Rock
    Island accounting office to request assistance in obtaining the missing
    documentation. However, DFAS Columbus was not able to obtain the additional
    documentation required to reconcile the contract.

    On January 30, 2004, DFAS Columbus notified our office that Army contract
    number DAAA09-81-G-2008/0031 was classified as unreconcilable because of
    the missing documentation.

    The Department of Defense Office of Inspector General reached an agreement
    with the Under Secretary of Defense (Comptroller)/Chief Financial Officer on
    November 14, 2003. We agreed that when DFAS Columbus determines that a
    contract is unreconcilable because of missing documentation, our office will
    review the adequacy of actions taken by DFAS Columbus and the DCMA
    activities to obtain the documents needed to fully reconcile the completed
    contract to allow closure in the MOCAS system. If our office agrees with the
    assessment of DFAS Columbus and DCMA that the contract is unreconcilable,



                                        1
    DFAS Columbus will forward the contract closeout summary to the Director of
    DFAS requesting approval to close the contract in the MOCAS system.


Objectives
    Our audit objective was to review the actions DFAS Columbus and DCMA
    activities took in attempting to locate missing documentation and reconcile
    contracts that were considered unreconcilable. See Appendix A for a discussion
    of the scope and methodology.




                                       2
           Contract No. DAAA09-81-G-2008/0031
           We did not locate the 40 missing documents that DFAS Columbus needed
           to perform a full reconciliation of Army contract DAAA09-81-G-
           2008/0031. Therefore, we concur with the DFAS Columbus conclusion
           that Army contract DAAA09-81-G-2008/0031 was unreconcilable.
           However, DFAS Columbus needed to use the information it has available
           to perform a review of obligations to determine whether the out of balance
           condition is within the provisions of Section 852 of the National Defense
           Authorization Act for Fiscal Year 2005, title VIII, “Acquisition Policy.”
           This Act allows contracts to be closed across appropriations if the balance
           that cannot be reconciled, either positive or negative, is less than
           $100,000.

           Upon completion of the obligation review, if the out of balance condition
           is below $100,000, DFAS Columbus is permitted by law to forward a
           request to the Director, Defense Finance and Accounting Service to
           prepare internal adjustments to close out the contract. If the obligation
           reconciliation shows that the out of balance condition is above $100,000,
           DFAS Columbus will need to maintain the contract in the MOCAS system
           pending a change in legislation to increase the threshold.


Documentation Needed for Contract Closure
    DCMA Pittsburgh, Pennsylvania, personnel indicated that, with the exception of a
    15-month period, Army contract DAAA09-81-G-2008/0031 was pending closure
    in MOCAS for 17 years, since 1987 when the contract was physically completed.
    This contract was initially closed in MOCAS in 1992 and reopened in 1994.
    Current DFAS Columbus personnel could not explain why the contract was
    initially closed and reopened.

    At the time of the audit, DFAS Columbus did not have 40 essential documents it
    needed to perform a full reconciliation. The missing documentation consisted of
    8 modification documents, 25 payment documents, and 7 shipment documents.


Actions Taken on Missing Documents
    DFAS Columbus Search for Missing Documentation. In an effort to close the
    contract in MOCAS, DFAS Columbus personnel began a new search for missing
    documentation in July 2003. They began by contacting the ACO at the DCMA
    office in Pittsburgh; the PCO at TACOM in Rock Island, Illinois; and the DFAS
    accounting station also at Rock Island. Personnel at those locations informed
    DFAS Columbus that they had no additional documentation related to this
    contract.

    Additionally, the PCO contacted the contractor, Mine Safety Appliances, and
    requested assistance in obtaining missing documentation. However, the

                                        3
    contractor performed another review and determined that it could not locate any
    of the missing documents.

    DoD Inspector General Review and Search. During the audit, we were able to
    obtain six of the 40 missing documents. The DCMA office in Pittsburgh
    provided us two of the modification documents that DFAS was missing. We also
    were able to obtain two additional modification documents and two of the missing
    payment documents from the DFAS Rock Island office.

    We asked cognizant personnel at the DCMA Pittsburgh and DFAS Rock Island
    offices why they were able to locate documentation for us but did not provide the
    information to DFAS Columbus earlier. They indicated that they had overlooked
    the documents in earlier searches.

    Despite the limited success we had in obtaining additional documentation, we
    confirmed that the remaining 34 documents were not available. Therefore we
    confirmed the RAID team’s conclusion that the contract is unreconcilable.


Remedy for Contract Closure
    Section 804(a) of the National Defense Authorization Act for Fiscal Year 2004
    (Public Law 108-136; 117 Stat.1541) allowed that a contract that is considered
    unreconcilable with an out of balance condition, either positive or negative, that is
    less than $100,000 can be adjusted for the purpose of contract closure.
    Section 852 of the National Defense Authorization Act for Fiscal Year 2005,
    title VIII, “Acquisition Policy,” amended Section 804(a) by adding the following
    provisions:
           Section 804(a) of the National Defense Authorization Act for Fiscal
           Year 2004 (Public Law 108-136; 117 Stat. 1541) is amended—
                  (1) by inserting “(1)” after “(a) AUTHORITY.—”; and
                  (2) by adding at the end the following new paragraph:
              “(2) Under regulations which the Secretary of Defense may
           prescribe, a settlement of a financial account for a contract for the
           procurement of property or services under paragraph (1) may be made
           without regard to—
                  “(A) section 1301 of title 31, United States Code; and
                  “(B) any other provision of law that would preclude the
           Secretary from charging payments under the contract—
                     “(i) to an unobligated balance in an appropriation available
           for funding that contract; or
                     “(ii) if and to the extent that the unobligated balance (if any)
           in such appropriation is insufficient for funding such payments, to any
           current appropriation that is available to the Department of Defense for
           funding contracts for the procurement of the same or similar property
           or services.”




                                               4
    The Army’s accounting records show a zero balance. However, the out of
    balance condition for contract DAAA09-81-G-2008/0031 in MOCAS is a
    negative $103,595. The out of balance condition is only $3,595 over the
    threshold established in the legislation. Nevertheless it exceeds the maximum
    threshold and cannot be adjusted without further evidence.

    To ensure that the out of balance condition has been determined correctly, DFAS
    Columbus personnel should perform a final review of all obligations using all
    information available and the additional documentation identified by the audit.
    The review should examine the newly located documentation and all other
    available obligation documents to determine whether there is a change in the
    amount of the out of balance condition or if an error was made in posting
    obligations or de-obligations. This review will determine whether the out of
    balance condition can be adjusted under the $100,000 threshold using internal
    adjustments to MOCAS only.

    If the out of balance condition remains above the $100,000 threshold, DFAS
    Columbus cannot adjust and close the contract. DFAS Columbus needs to take
    steps to annotate the “Remarks” field in the active MOCAS system to identify this
    contract as “unreconcilable.” This will ensure that the contract is not included in
    the active files that are pending reconciliation.

    Until additional legislative remedy is obtained that provides authority to the
    Secretary of Defense to close contracts that exceed the current limit of an out of
    balance threshold of $100,000 on a case-by-case basis, contracts such as Army
    contract DAAA09-81-G-2008/0031 must remain in the MOCAS system.

    The Department plans to propose an amendment to increase or eliminate the
    $100,000 threshold in the FY 2007 or FY 2008 legislative cycle. Because the
    Department is taking this initiative, we are not recommending further action at
    this time.


Recommendations and Management Comments
    We recommend that the Director, Defense Finance and Accounting Service
    Columbus:

           1. Perform a review of obligations using all information available to
    determine whether the out of balance condition of Army contract number
    DAAA09-81-G-2008/0031 is beneath the threshold of $100,000 that Section
    804 of the National Defense Authorization Act for Fiscal Year 2004, title
    VIII, “Acquisition Policy,” sets as the ceiling allowed for closing a contract
    without a full reconciliation.

    Management Comments. The Deputy Director of Commercial Pay Services
    concurred and stated the obligation audit has been performed, adjustments have
    been made, and the contract is currently awaiting closure.




                                         5
       2. Prepare a contract closeout summary requesting that the Director,
Defense Finance and Accounting Service grant approval to close Army
contract number DAAA09-81-G-2008/0031 using only internal adjustments
in the Mechanization of Contract Administration Services system if the
obligation reconciliation in Recommendation 1 results in meeting provisions
of current legislation.

Management Comments. The Deputy Director of Commercial Pay Services
stated that because of the actions taken to process internal adjustments in the
Mechanization of Contract Administration Services system that resulted in a zero
unliquidated obligation balance, approval from the Director, Defense Finance and
Accounting Service was not required.

        3. If the steps taken in Recommendations 1 and 2 do not result in the
closure of contract number DAAA09-81-G-2008/0031, annotate the
“Remarks” field in the Mechanization of Contract Administration Services
system that the contract is unreconcilable awaiting closure in the event
legislative relief is approved.

Management Comments. The Deputy Director of Commercial Pay Services
stated that this recommendation was considered closed because of the actions
taken to process internal adjustments that allowed closure of the contract.




                                   6
Appendix A. Scope and Methodology
    We reviewed the steps taken by DFAS Columbus and DCMA in their attempt to
    reconcile contracts considered unreconcilable. The contract was valued at
    $127.8 million according to MOCAS records. We conducted interviews and
    reviewed records maintained by DFAS Columbus, DCMA Pittsburgh, DFAS
    Rock Island, and the PCO at TACOM. The records included all relevant
    correspondence, emails, MOCAS system data, and Army accounting system data.

    We performed this audit from February 2004 through December 2004 in
    accordance with generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not evaluate the general and
    application controls of the MOCAS system that processes disbursement and
    obligation data, although we used data produced by MOCAS to conduct the audit.
    We did not evaluate the controls because the objective of this audit was to review
    the actions taken to locate missing contract documents. Not evaluating the
    controls did not affect the results of the audit.

    Government Accountability Office High-Risk Area.                The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    focuses on the area of Financial Management by providing coverage of DoD
    efforts to confront and transform pervasive, decades-old financial management
    systems.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We did not review
    the management control program because the audit focused only on actions taken
    to obtain missing contract documents.


Prior Coverage
    During the last 5 years, no prior coverage had been conducted on Army contract
    number DAAA09-81-G2008/0031.




                                        7
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Director, Program Analysis and Evaluation
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
    Director, Defense Finance and Accounting Service-Columbus
    Director, Defense Finance and Accounting Service-Rock Island
Director, Defense Contract Management Agency
    Director, Defense Contract Management Agency, Pittsburgh Office




                                          8
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        9
Defense Finance and Accounting Service
Comments




                      11
12
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service, prepared this report. Personnel of the
Department of Defense Office of the Inspector General who contributed to the
report are listed below.

Paul J. Granetto
James L. Kornides
John K. Issel
Clarence E. Knight III
John Frawley
Karen M. Bennett
